CERTIFICATE OF AFFIRMATION: COMPLIANCE: & SERVICE
I hereby affirm that I prepared and have read this Affidavit and
that I believe the foregoing statements in this Affidavit to be true. I
hereby further affirm that the basis of these beliefs is either my own
direct knowledge of the legal principles and historical facts involved
and with respect to which I hold myself out as an expert or statements
made or documents provided to me by third parties whose veracity I
reasonably assumed. Thus, statements are made under the penalty of perjury.
Further the Affiant sayeth naught.
Respondent's counsel has/is served by my mailing to him/them.
United States Attorneys Office Beaumont, Texas

^/li/aoao

COMPLIANCE
I certify that the foregoing brief is not more than^SflL pages
in length. I also certify that it is in compliance.
70

7

SERVICE
I, Daniel Thomason Smith, do certify that I have read the following
brief and that it is true and correct to the best of my ability. I also
certify that, pursuant to 28 U.S.C. Section 1746, on the day of tH ,
, 20:20, I have placed a copy of the
IN the month of iTulij
foregoing pleading in the United States Mail with U.S. Postage pre-paid
and affixed thereto to be mailed to the following below by placing said
pleading in the hands of prison officials here where I am located pursuant
to the 'mailbox rule' • I am at F.C. C-. Beaumont LOW
Reg. # 29163-380
c/o P.0. Box 260#0
Beaumont Texas 77720
DISTRICT CLERK OR THE HONORABLE MAGISTRATE JUDGE (JIBLIN
H)S. Court
300 Willow Street
House
UNITED STATES SUPREME COURT
Beaumont, Texas 77702
CLERK OF COURT
1 FIRST STREET NE
&ssfc CL.$,ftttorn
rnuhouJi.
ujaxjne koakn°LK^
WASHINGTON D.C. 20543

-dSQ 'tVla^nol
Daniel Thomason Smith(c) Trust
Without Prejudice

"fTYOl
Page *'8-

